                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12120085                                                                         Page 1 of 1



                 We learned that a PI 1 was informed by a panelist2 that one of her proposals would be awarded
         and that another one would be declined. The panelist claimed to have learned this information from
         an NSF program officer. We identified an outside connection between a program office~ involved
         in overseeing the panel and the panelist, making the scenario plausible. However, the panelist's
         communication with the PI occurred several months prior to the final budget negotiations and the
         program's documented decision to make the award. NSF did not formally award the proposal nor
         decline the other proposal until even later. Thus, there is insufficient substance to treat the alleged
         breach as anything more than rumor or conjecture on the part of the panelist. There is also
         insufficient substance to recommend disciplinary action against the program officer for any alleged
         breach.

                   Accordingly, this case is closed.




         2




NSF OIG Form 2 (11/02)
